<html>
<title> - EXAMINATION OF PUBLIC RELATIONS CONTRACTS AT THE GENERAL SERVICES ADMINISTRATION'S HEARTLAND REGION</title>
<body><pre>[Senate Hearing 112-49]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-49
 
                    EXAMINATION OF PUBLIC RELATIONS
  CONTRACTS AT THE GENERAL SERVICES ADMINISTRATION'S HEARTLAND REGION

=======================================================================

                                HEARING

                               before the

              AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 1, 2011

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
66-624                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe998e91be9d8b8d8a969b928ed09d9193d0">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           RON JOHNSON, Wisconsin
JON TESTER, Montana                  ROB PORTMAN, Ohio
MARK BEGICH, Alaska                  RAND PAUL, Kentucky

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


              AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT

                       CLAIRE McCASKILL, Chairman
THOMAS R. CARPER, Delaware           ROB PORTMAN, Ohio
MARK L. PRYOR, Arkansas              SUSAN M. COLLINS, Maine
JON TESTER, Montana                  JOHN McCAIN, Arizona
MARK BEGICH, Alaska                  RAND PAUL, Kentucky
                     Margaret Daum, Staff Director
                Brian Callanan, Minority Staff Director
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator McCaskill............................................     1
    Senator Portman..............................................     4

                               WITNESSES
                         Tuesday, March 1, 2011

Hon. Brian Miller, Inspector General, U.S. General Services 
  Administration.................................................     6
Hon. Martha Johnson, Administrator, U.S. General Services 
  Administration.................................................     7
Robert Peck, Commissioner, Public Buildings Service, U.S. General 
  Services Administration........................................     9
Mary Ruwwe, Regional Commissioner (Heartland Region), Public 
  Buildings Service, U.S. General Services Administration........    11

                     Alphabetical List of Witnesses

Johnson, Hon. Martha:
    Testimony....................................................     7
    Prepared statement...........................................    43
Miller, Hon. Brian:
    Testimony....................................................     6
    Prepared statement...........................................    37
Peck, Robert:
    Testimony....................................................     9
    Prepared statement...........................................    46
Ruwwe, Mary:
    Testimony....................................................    11
    Prepared statement...........................................    50

                                APPENDIX

Memorandum referenced by Senator McCaskill.......................    57
Questions and Responses for the Record from:
    Mr. Miller with attachment...................................    66


                    EXAMINATION OF PUBLIC RELATIONS
  CONTRACTS AT THE GENERAL SERVICES ADMINISTRATION'S HEARTLAND REGION

                              ----------                              


                         TUESDAY, MARCH 1, 2011

                                   U.S. Senate,    
          Ad Hoc Subcommittee on Contracting Oversight,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:07 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Claire 
McCaskill, Chairman of the Subcommittee, presiding.
    Present: Senators McCaskill and Portman.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. This hearing will come to order and, 
first and most importantly, before we do anything else, I want 
to welcome the new Ranking Member of the Committee, Senator Rob 
Portman. It is an honor to have you. I think we do great 
oversight work here.
    It is not always the sexiest topic that we handle in the 
Senate, but it is really important because of the amount of 
money that is spent on contracting in this government has 
exploded and the oversight, at the same time, has not been as 
aggressive as it needs to be.
    So, I will look forward to working with you, and I am glad 
that you are somebody who has a great deal of experience in the 
Federal Government. I think you are going to be a tremendous 
asset to this effort and--not that I had any say as to who it 
was going to be, but I do not think the Republican Party could 
have picked a better person to be the Ranking Member of this 
particular Subcommittee, and I welcome you heartily.
    Senator Portman. Thank you, I appreciate it.
    Senator McCaskill. This hearing will now come to order.
    Today's hearing focuses on public relations (PR) contracts 
awarded by the General Services Administration (GSA). There are 
probably many Americans who have never heard of GSA, but GSA is 
the government agency that manages Federal property, including 
Federal buildings and courthouses across the country.
    GSA also administers hundreds of billions of dollars of 
contracts known as the Federal Schedules, which are used by 
other Federal agencies to buy goods and services.
    The contracts we are here to discuss today were awarded by 
GSA to help respond to concerns about the way GSA was managing 
the Bannister Federal Complex in Kansas City.
    For those who do not know Kansas City, the Bannister 
Complex covers over 300 acres and has over 2,000 Federal 
employees and 2,300 contractors working on its grounds.
    Part of the complex, the Kansas City Plant, was originally 
built in 1942 to manufacture airplane engines for the Navy, and 
since 1949, has produced non-nuclear components for nuclear 
weapons.
    Today, the Department of Energy (DOE) administers the 
Kansas City Plant and the GSA administers the rest of 
Bannister.
    Because of environmental contamination that happened at 
Bannister from the 1950s through the 1970s, the Federal 
Government has spent the last few decades working to clean up 
the pollution and testing to ensure that the facility is safe 
for the thousands of Federal employees who work there.
    In the past 2 years, a number of new reports have surfaced 
regarding environmental and health concerns at Bannister, and 
new investigations have been launched of the complex's safety, 
including a review by the GSA Inspector General (IG).
    To respond to these investigations, in February 2010 GSA 
awarded a contract to a small public relations company in 
Kansas City called Jane Mobley Associates (JMA).
    Now, one of the Subcommittee's most important 
responsibilities is to ensure that when an agency awards a 
contract, it is doing so with the best interest of the American 
taxpayer in mind. This contract, through which GSA ultimately 
gave JMA more than $234,000 for 3 months' work does not appear 
to be in the best interest of the taxpayer.
    According to GSA, the agent had an ``urgent and 
compelling'' need to award this contract because they were in 
the midst of a ``crisis'' caused by the news reports and 
Federal investigations. And despite having numerous public 
affairs officials in Kansas City and Washington, the agency 
said they did not have anyone capable of dealing with the media 
or communicating with the people at Bannister.
    At today's hearing, we will explore why GSA thought it 
would serve the American people and the taxpayers to spend 
hundreds of thousands of dollars to hire a public relations 
firm to communicate with Federal employees when it already had 
people to do that job.
    We will also explore the many problems that GSA, the 
Federal Government's main contracting agency, made in awarding 
and managing this contract. It was awarded in 1 day without 
nearly enough planning and with no competition.
    One of the main rationales for using JMA was that it had 
extensive experience doing this kind of work for EPA, but GSA 
failed to do the basic legwork that would have revealed that 
JMA had never received any contracts from EPA.
    It also looks like GSA essentially allowed the contractor 
to both decide what it was going to do and how much that was 
going to cost.
    For the Federal Government, which routinely awards 
contracts worth billions, this contract may seem like 
relatively small potatoes, but the award and the management of 
this contract is a case study, and it raises very serious 
questions about how GSA, which is responsible for both property 
and acquisitions for the government may have fallen short at 
both.
    In addition, information provided to the Subcommittee shows 
that the Federal Government has spent billions on contracts for 
public relations and related services over the past 5 years.
    While PR contracts like the one we will examine today may 
be legal, we need to be able to rely on our public officials to 
exercise sound judgment about when such a contract is actually 
necessary.
    The American people may not know much about GSA, but they 
know that their government should be working for them. They do 
not want their taxpayer dollars wasted, and they do not want 
their government officials to be more concerned about 
protecting their public image than protecting them.
    Today, we will have the opportunity to ask GSA officials 
whether they are meeting the standards expected of them.
    The Administrator of GSA, Martha Johnson, is here today, 
and I want to thank her for joining us today.
    She is joined by Robert Peck, who is the head of GSA's 
public building services, and Mary Ruwwe, who is the head of 
Public Building Services (PBS) in Kansas City.
    Brian Miller, GSA's Inspector General, will also testify 
today.
    I welcome all the witnesses and look forward to all their 
testimony.
    I want to say, before we begin, that this is, frankly, in 
some ways, as I said in my formal opening statement, small 
potatoes because of the size of the contract involved, but if 
we do not break down contracting to a level where the American 
people can understand how it happens, where it happens, and why 
it happens, and whether indeed it is the best use of their 
dollars, we have no chance at this gargantuan problem of 
government contracting and how well it is being done.
    So, in some ways, this may seem unfair. It may seem like we 
are picking on GSA, because I guarantee you there are contracts 
like this sprinkled throughout the Federal Government, 
contracts that are entered into in a hurry, without the 
appropriate oversight, without the appropriate scoping, without 
the appropriate planning, without enough concern about how much 
it costs, but I happen to know a lot about this one because it 
happened in Kansas City.
    So, this is one of those times that there is good news and 
bad news. The good news is I know a lot about this contract and 
the bad news for GSA is I happen to be from Missouri and Chair 
this Subcommittee; so, it is an easy one for us to do a case 
study of.
    But I want to say at the outset I perfectly well understand 
that this is not a problem that is just GSA's, and I perfectly 
well understand that the problems we are going to talk about 
today in contracting apply to every Federal agency. And it just 
so happens that this is a perfect, manageable-sized contract, 
and we can do the timeline of exactly of what happened. And I 
think it will be illustrative to other Federal agencies that 
this is not the way you are supposed to contract; this is not 
the way it is supposed to be done, and hopefully we will learn 
from this and other Federal agencies will pay attention.
    And I would now turn it over to the Ranking Member for his 
opening statement.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you very much, Senator McCaskill. It 
is an honor to be here today in my first Subcommittee hearing 
as your Ranking Member, and I am not quite sure how I ended up 
here, either, but I am glad I did.
    As Chairman McCaskill has already noted, the Subcommittee 
does really deal with issues that really strike at the heart of 
how our government operates, and I look forward to the 
important work ahead.
    We have an enormous fiscal crisis facing the country, and a 
lot more attention on that, even this week, as we will be 
talking about the spending for this year. But at a time when we 
have these fiscal challenges, more than ever, we need to be 
sure that our tax dollars are being spent wisely and 
responsibly, and really, that is what this Subcommittee is 
about.
    I want to commend the Subcommittee for its past work and 
Chairman McCaskill for her dedication to eliminating waste, 
fraud, abuse, and mismanagement in government contracting.
    I am told that the Committee, and this Subcommittee in 
particular, was pretty busy over the last few years and had 
some big accomplishments. The Subcommittee looked at Arlington 
National Cemetery and came up with some badly needed reforms 
there, and I look forward to working with the Chairman and her 
staff in the days ahead on many of these issues.
    I also want to note the contributions made by Senators 
Susan Collins and Scott Brown in the last Congress, both at the 
Subcommittee and full Committee level in this area of, again, 
ensuring that we are bringing Federal contracting issues up and 
dealing with them in a responsible way.
    As American families have tightened their belts and 
businesses have learned to do more with less the last couple of 
years, the Federal Government has grown and kind of gone in the 
opposite direction, and it is time for us to, again, ensure 
that money is being spent wisely and effectively and that 
effective oversight does occur.
    I served for just over a year as the Office of Management 
and Budget (OMB) Director, and there our goal was to put, as we 
said, the ``M'' back in OMB, and that meant getting at some of 
these very issues and we had some success in focusing on waste, 
and better management, and made that a top priority. We led 
initiatives to reduce improper payments, to enhance 
transparency over financial management, improved the management 
of the government's information technology investments and to 
consolidate duplicative systems.
    And Chairman McCaskill said it is not necessarily the 
sexiest issue in government, but it is an incredibly important 
issue and I think effective oversight is crucial with 
government contracts. After all, if you look at it from a broad 
perspective, goods and services in government contracts now 
exceed $530 billion; that was the number from the last fiscal 
year. So this is a huge amount of money, and it is necessary 
that this Subcommittee and others provide better oversight, as 
we said earlier.
    Today's hearing does raise very important questions about 
transparency in our government and the appropriate use of 
contractors. It is a case study, as the Chairman said. I am 
interested in learning more about it.
    I commend the Chairman for her investigations here, as well 
as the work she has done with Senator Roy Blunt and former 
Senator Kit Bond, and I look forward to hearing from the 
witnesses, and I thank them for being here today.
    Thank you, Madam Chairman.
    Senator McCaskill. Thank you, Senator.
    The Subcommittee staff has prepared a Memorandum regarding 
to the contract.
    I move that the memorandum and the underlying documents 
that support the Memorandum be included in the record.\1\
    Senator Portman. Second.
    Senator McCaskill. Without objection, those will be 
included in the record.
---------------------------------------------------------------------------
    \1\ The information referenced by Senator McCaskill appears in the 
appendix on page 57.
---------------------------------------------------------------------------
    Let me introduce the witnesses and we will begin testimony.
    Brian Miller has served as the Inspector General for the 
GSA since his confirmation by the Senate in July 2005. He is 
also Vice Chair of the National Procurement Fraud Taskforce and 
a member of the Department of Justice's (DOJ) Recovery Act 
Fraud Working Group.
    Mr. Miller received the Attorney General's Distinguished 
Service Award in 2008. This is Mr. Miller's third appearance 
before this Subcommittee and his second this year.
    Martha Johnson was confirmed as the Administrator of GSA on 
February 5, 2010. Prior to her appointment, Ms. Johnson worked 
in the private sector for Computer Sciences Corporation (CSC) 
and the Society of Research Administrators International (SRA). 
She served as Assistant Deputy Secretary at the Department of 
Commerce and was Chief of Staff at GSA during the Clinton 
Administration.
    Robert Peck is the Commissioner of Public Buildings for 
GSA, a position he also held under the Clinton Administration. 
Mr. Peck previously served as Managing Director of Jones Lang 
LaSalle. He has also held positions at the Office of Management 
and Budget, the National Endowment for the Arts (NEA), and the 
Federal Communications Commission (FCC).
    Mary Ruwwe--am I saying your name correctly, Ms. Ruwwe?
    Ms. Ruwwe. Yes.
    Senator McCaskill. Mary Ruwwe is the Regional Commissioner 
for the Public Building Service in the Heartland Region, which 
includes Missouri, Kansas, Iowa, and Nebraska. Ms. Ruwwe has 
served GSA in the Heartland Region for more than 20 years.
    It is the custom of this Subcommittee to swear in all 
witnesses that appear before us. So, if you do not mind, I 
would ask you to stand.
    Do you swear that the testimony you will give before the 
Subcommittee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Miller. I do.
    Ms. Johnson. I do.
    Mr. Peck. I do.
    Ms. Ruwwe. I do.
    Senator McCaskill. Let the record reflect that all the 
witnesses have answered in the affirmative.
    We will be using a timing system today. We would ask that 
your oral testimony be no more than 5 minutes. Your written 
testimony, of course, will be printed in the record in its 
entirety and if, for any reason, that you feel, as a matter of 
fairness, you need longer than 5 minutes, of course the 
Subcommittee will be happy to allow you that time.
    And we will begin with you, Mr. Miller.

TESTIMONY OF THE HON. BRIAN MILLER,\1\ INSPECTOR GENERAL, U.S. 
                GENERAL SERVICES ADMINISTRATION

    Mr. Miller. Madam Chairman, Ranking Member Portman, thank 
you for inviting me here to testify this morning.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Miller appears in the appendix on 
page 37.
---------------------------------------------------------------------------
    When President Truman created the GSA in 1949, he said that 
it would improve the government system of property management 
and procurement. Accordingly, GSA's two core missions are 
property management and procurement, both are in play at the 
Bannister Federal Complex in Kansas City, Missouri.
    This morning, I will address my office's audit of 
environmental conditions at Bannister, and GSA's decision to 
contract with a public relations firm. My focus will be on my 
office's findings and GSA's response to those findings.
    Our audit on environmental issues at Bannister found, 
first, that GSA did not have a strong environmental program at 
Bannister.
    Second, that GSA did not take steps to protect workers when 
presented with evidence of potential hazards.
    And third, that GSA provided incorrect and misleading 
information to both my office and the public.
    Although GSA's written response to our report seemed 
primarily focused on defending itself in quibbling over words, 
we are encouraged by GSA's 2010 actions to enlist the 
assistance of Environmental Protection Agency (EPA) and the 
National Institute for Occupational Safety and Health (NIOSH).
    GSA also contracted with Jane Mobley Associates, a public 
relations firm. Although our audit is ongoing, we issued an 
interim audit memorandum to make GSA aware of the problems with 
the contract and to help prevent similar mistakes in the 
future.
    The problems with the JMA contract include: GSA awarded a 
sole source contract without justifying why it did not consider 
other vendors.
    Second, the scope of work was not adequately defined or 
priced. JMA itself apparently wrote the Statement of Work 
(SOW).
    Third, the initial task order had no specific, measurable 
deliverables. GSA apparently did not know that it received what 
it wanted, so it relied on an EPA official to accept JMA's work 
and help approve payment.
    And last, the contract extension simply was not justified. 
These problems produced a situation in which the government has 
no assurance that it paid a fair price for the services 
received.
    GSA's response to our Audit Memorandum, like the response 
to our report on environmental issues, failed to fully 
acknowledge the extent of the problems. This gives little or no 
assurance that the same problems will not be repeated on future 
procurements.
    In order to correct a problem, you must admit the problem. 
GSA seems for whatever reason seems reluctant to take full 
responsibility for the errors in the JMA contract.
    In order to fulfill its responsibilities as the Federal 
Government's property management and procurement expert, GSA 
must set a tone of taking immediate and decisive action to 
address any safety concerns of Federal workers without waiting 
for an Inspector General review or congressional action to spur 
it to act, and it must ensure that all proper contracting 
procedures are followed. This has not been the case at 
Bannister in either the property management or procurement 
areas.
    Thank you for inviting me here this morning and I welcome 
any questions from the Subcommittee.
    Senator McCaskill. Thank you, Mr. Miller. Ms. Johnson.

 TESTIMONY OF THE HON. MARTHA JOHNSON,\1\ ADMINISTRATOR, U.S. 
                GENERAL SERVICES ADMINISTRATION

    Ms. Johnson. Chairman McCaskill and Ranking Member Portman, 
I am Martha Johnson, Administrator of the General Services 
Administration. I took the oath of office on February 7, 2010, 
and I am honored to serve in this capacity.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Johnson appears in the appendix 
on page 43.
---------------------------------------------------------------------------
    Thank you for the opportunity to appear before the Senate 
Subcommittee on Contracting Oversight today.
    As requested, I am here today to speak to GSA's award, 
management, and oversight of the Jane Mobley Associates 
contract.
    In November 2009, GSA's Heartland Region began to receive 
media and public inquiries revolving around health and safety 
issues at the Bannister Federal Complex.
    And let me note, the Bannister Federal Complex consists of 
5 million square feet of mixed-use space with 42 buildings. GSA 
controls 12 buildings totaling 2 million square feet while the 
Department of Energy manages the balance of the facility. From 
the 1940s through the mid 1970s, the ownership and control of 
the property was divided between the Department of Defense 
(DOD), the Atomic Energy Commission (AEC), and, later, the 
Department of Energy and GSA.
    By late January 2010, these inquiries had increased 
dramatically, causing unprecedented tenant and employee 
concerns about the safety of the Bannister Federal Complex. The 
quantity and complexity of these media inquiries, as well as 
various government reports regarding Bannister indicated the 
need for a more advanced level of communications expertise than 
the Region could provide in-house.
    The Heartland Region consulted with the regional 
Environmental Protection Agency. Given EPA's experience with 
environmental communications, the EPA Associate Regional 
Administrator recommended a local communications firm, JMA.
    In addition to their listed professional references, JMA 
had firsthand experience--firsthand environmental crisis 
management experience, experience with evaluating and 
translating technical data, and had previously worked with 
other government agencies. Relying on EPA's superior experience 
with environmental crisis management and communications, GSA 
sought guidance on framing the Statement of Work from EPA. EPA 
appropriately provided the required assistance and GSA then 
negotiated a final Statement of Work with JMA.
    Upon finalizing the statement of work, the Heartland Region 
expedited the retention of JMA. The expedited timeline for 
selection was based on the existing urgent and compelling 
circumstances. GSA believed that these circumstances existed 
because of employee and tenant concerns that conditions 
impaired their ability to work.
    On February 5, 2010, the Region entered into a one-month 
contract for services with GSA. The Region and JMA developed a 
communications plan, discussed test results in reports 
commissioned by the EPA and NIOSH, and created a contingency 
plan for an alternate site for the childcare center.
    Significant progress on local communications had been made 
after 1 month; however, the Heartland Region was still not 
comfortable in its capacity to respond to multiple inquiries 
from the media, current and former employees, and the public. 
Moreover, it was apparent that extensive outreach and 
coordination were still needed to address the public concerns.
    On March 8, 2010, the Heartland Region issued a 
modification to the existing contract to extend the services 
under the original agreement. The scope of work and discussions 
with JMA made clear that the last 2 months were to serve as a 
transition period, during which GSA would assume and manage 
these responsibilities in-house. JMA assisted GSA in providing 
clarity on issues, performed extensive research, and 
facilitated meetings between GSA, EPA, and DOE.
    JMA also assisted in the further development of the skills 
and knowledge of in-house staff in preparation for assuming the 
communications role for this issue.
    In sum, GSA was faced with a series of complex issues at 
the Bannister Federal Complex, and since employee health and 
safety is our number one responsibility, the Heartland Region 
moved swiftly to address employee and community concerns and 
prevented continued harm to the agency.
    Pursuant to the Inspector General's report which contained 
a list of recommendations, GSA has taken proactive steps, which 
I believe will further enhance the safety and management of 
Bannister.
    First, we have developed an environmental work plan and 
quality assurance project.
    Second, we have finalized a GSA regional environmental 
management system to manage and monitor the regional program in 
accordance with EPA guidance.
    Third, we have established a system where information 
released goes through a multistep review process to ensure 
accuracy.
    In view of the above, I believe these positive steps 
illustrate our true desire to achieve transparency, 
accountability, and better management of those challenging 
issues that have appeared at the Bannister Federal Complex.
    This concludes my remarks, and I look forward to our 
discussion today.
    Senator McCaskill. Thank you, Ms. Johnson. Mr. Peck.

  TESTIMONY OF ROBERT PECK,\1\ COMMISSIONER, PUBLIC BUILDINGS 
         SERVICE, U.S. GENERAL SERVICES ADMINISTRATION

    Mr. Peck. Madam Chairman, Ranking Member Portman, and 
members of the public, thank you for inviting me to speak to 
you today regarding the General Services Administration's 
Public Building Service property management and public 
relations efforts in Kansas City.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Peck appears in the appendix on 
page 46.
---------------------------------------------------------------------------
    Nationally, GSA manages a portfolio of more than 1,500 
Federally owned buildings, and we house 1,100,000 Federal 
employees from more than 100 Federal agencies. As the Federal 
Government's landlord, it is our job to ensure that our 
buildings are safe, well functioning, and welcoming to our 
tenants and visitors. We strive at all times to be open and 
responsive in our communication with both tenants and the 
public.
    On a daily basis, we manage building and tenant issues, 
including fire and life safety and environmental issues. We 
conduct periodic surveys and assessments of our buildings to 
ensure that they are well functioning and safe for tenants. We 
even survey our tenants to make sure they think we are doing a 
good job and that the buildings are appropriate as work spaces.
    As specific concerns arise from tenants, GSA assess the 
nature and scope of the problem, usually via studies or tests, 
and then addresses the problem as those assessments indicate is 
necessary.
    We often contract with third parties to conduct these 
evaluations to ensure that we receive independent assessments, 
and we also often contract with third parties to carry out 
corrective measures.
    In fact, most routine mechanical maintenance and cleaning 
functions in Federal buildings are carried out by third party 
contractors, as well.
    If we determine that an environmental problem does exist 
within a facility, we immediately take corrective measures. 
Most of the issues that arise in our buildings never become a 
public concern because GSA's experts are able to collaborate 
effectively with tenants to dispel their concerns. GSA relies 
on our in-house communication experts to share accurate 
information with our tenants.
    And as I said, we routinely manage communication issues and 
handle media inquiries with in-house staff; however, we can 
seek the assistance of outside communications resources when we 
identify either a lack of capacity or expertise on a specific 
subject matter, and that was the case in the Bannister Complex 
in Kansas City.
    The situation there became particularly urgent due to 
voluminous information requests, media reports, and concerned 
tenants who had questions regarding the safety of their 
workplace.
    Before we retained JMA, Jane Mobley Associates, GSA was 
already working closely with tenants to understand and address 
their environmental concerns at the Bannister Complex. Over the 
years, GSA has frequently monitored and evaluated conditions in 
the building and communicated back to tenant leadership that 
these evaluations established and maintained that the building 
is safe for occupancy.
    We were concerned that, despite our best efforts in late 
2009, tenant employee concerns seemed to indicate that our 
efforts were not satisfying tenants and not making them feel 
confident about their safety at the complex. At that time, in 
late 2009, we saw an increase in inquiries and requests for 
information, which we initially managed on our own.
    But eventually, giving the significant burdens on our 
public affairs staff in the Region, we did go out and seek 
assistance from JMA. They helped us develop a plan to handle a 
large number of communication inquiries and effectively 
communicate the complex and technical results of our many 
environmental studies assessing the safety of the building. 
This, our response, reflected the results of numerous 
assessments, and I would emphasize again that all testing to 
date at Bannister indicates that no health risk exists.
    JMA was hired off of a GSA multiple award schedule (MAS), 
as it is called, which offers--our multiple award schedules 
offer Federal agencies a streamlined means of acquiring 
services in numerous areas, including public relations.
    Prices for services on the schedules have already been 
determined to be fair and reasonable before a firm is put on 
the schedule, and that price review is done by reviewing prices 
offered to similarly situated commercial customers.
    We at GSA take our obligation seriously to provide safe 
Federal facilities for our employees, the employees of our 
tenant agencies, and the visiting public.
    We fully understand and are committed to effectively 
communicating with employees and the public about the steps we 
are taking to assure their safety.
    The urgency of this obligation in Kansas City necessitated 
that we seek additional resources. Our response in Kansas City 
was not propaganda in the legal sense and in--and it was a 
legal use of government contracting authority.
    Madam Chairman and Ranking Member Portman, I am happy to 
answer any questions you have. Thank you, again, for the 
opportunity to be here.
    Senator McCaskill. Thank you, Mr. Peck, and thank you for 
your public service. Ms. Ruwwe.

   TESTIMONY OF MARY RUWWE,\1\ REGIONAL COMMISSIONER, PUBLIC 
    BUILDINGS SERVICE, U.S. GENERAL SERVICES ADMINISTRATION

    Ms. Ruwwe. Good morning, Madam Chairman, Ranking Member 
Portman, and Members of the Subcommittee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Ruwwe appears in the appendix on 
page 50.
---------------------------------------------------------------------------
    My name is Mary Ruwwe, and I am the Regional Commissioner 
of GSA's Public Building Service in the Heartland Region.
    Thank you for inviting me to join you today to discuss 
PBS's use of public relation services with Jane Mobley and 
Associates at the Bannister Federal Complex in Kansas City.
    As a public official, my primary responsibility is to 
ensure the health and safety of people working in and visiting 
GSA facilities. When concerns are raised regarding 
environmental safety in our buildings, GSA works diligently to 
address those concerns. This is certainly true in the case of 
the Bannister Federal Complex.
    Over the years, GSA has continually monitored the complex. 
We have conducted hundreds of environmental tests. All of these 
tests have indicated that the facility has been and remains a 
healthy environment for our employees, the tenants, and the 
public.
    Until recently, GSA relied on in-house communications 
experts to relay information to the community. In early 2010, 
circumstances changed drastically. Tenant and public inquiries 
significantly increased and the situation became more complex 
due to amplified media concerns resulting in employees' 
heightened fears of unsafe conditions.
    At GSA, we realized we needed additional resources and 
technical assistance to fully and accurately characterize the 
developing situation. As a result, GSA procured communication 
services from Jane Mobley and Associates, who I will refer to 
as JMA.
    With JMA's assistance, GSA acted swiftly to address 
employee and community concerns.
    Madam Chairman, I take all matters of employee health and 
workplace safety seriously and always work to ensure that 
appropriate action is taken to provide safety--safe and healthy 
facilities. Along with this responsibility comes a parallel 
duty to communicate with the public honestly, promptly, and 
effectively.
    Until early 2010, there was an ebb and flow of 
environmental testing and occasional concerns at Bannister. 
With the release of certain media stories in late 2009, 
information began to increase to two or three inquiries per 
week. During this time, GSA's single in-house communications 
staffer handled this outreach.
    Then, in late January 2010, circumstances changed 
radically. Over the course of 7 days, multiple events pushed us 
beyond our in-house communication capabilities. We experienced 
a significant increase in inquiries and requests for additional 
testing.
    A protest was staged outside our childcare facility. We 
were also challenged with the need to coordinate among Federal, 
State, and local regulators. These new events, together with a 
surge in media attention stoked by rumors and misconceptions 
created an unpredictable and unprecedented pressure cooker 
environment. There was an urgent need to get the facts and the 
truth to the public.
    In consultation with the EPA, GSA decided to procure a 
communications expert from GSA's multiple award schedules. GSA 
selected JMA, a local small business with government 
experience, knowledgeable of crisis management, and experienced 
at digesting and translating technical data.
    With the firestorm of events in 2010 coupled with our 
limited staff's lack of crisis management expertise, following 
the typical ordering procedures would have resulted in 
unacceptable delays.
    Before a vendor can be awarded a scheduled contract, its 
offered prices must be determined to be fair and reasonable. 
Although not required to do so, GSA conducted a price 
comparison from three vendors. JMA was a local small business 
and had the lowest cumulative rate and required skills set to 
accomplish the work successfully.
    GSA determined that JMA was the best vendor to meet our 
needs through a firm fixed-price contract. GSA and JMA worked 
closely together to develop and launch a communications and 
contingency plan. The whole time, GSA has--throughout this 
whole time, we have maintained our role as spokesperson and 
directly oversaw all messaging and outreach efforts.
    By the end of February, significant progress had been made; 
however, there was still a high volume of inquiries and 
concerns. For that, GSA extended JMA's services for another 2 
months.
    During a turbulent, unique period for GSA, JMA was able to 
assist us in a short timeframe in effectively and timely 
communicating the facts to the community to help calm fears and 
dispel misperceptions.
    At GSA's request, the National Institute of Occupational 
Safety and Health conducted a health hazard evaluation at the 
GSA complex and did not find any cases of health concerns. 
Based on an extensive review and the current work plan, the 
National Institute for Occupational Safety and Health does not 
recommend any additional testing at this time.
    The Bannister Complex has been and continues to be a 
healthy place to work. Based on testing results from the past 
two decades, the GSA controlled space at the Bannister Federal 
Complex is believed to possess no health risks to workers, 
visitors, or children at the childcare center.
    GSA will continue to ensure the safety of those working and 
visiting the Bannister Federal Complex. As well, we will 
continue to partner with the Environmental Protection Agency 
and the National Institute for Occupational Safety and Health 
to execute our environmental work plan and address health 
concerns.
    Madam Chairman, Ranking Member Portman, and Members of the 
Subcommittee, this concludes my statement. I would be pleased 
to answer any questions you may have.
    Senator McCaskill. Thank you.
    Thank you all for being here.
    And if the staff would go ahead and set our timers up here 
so I can be aware of how much time I take so that I can make 
sure and go to Senator Portman at an appropriate interval and 
we will continue to go back-and-forth asking questions until we 
have had all the questions answered that we are curious about.
    Let me start with this: Ms. Johnson, did you do anything 
wrong in this contract? Did GSA do anything wrong?
    Ms. Johnson. We did nothing wrong with this contract.
    Senator McCaskill. Mr. Peck, did GSA do anything wrong in 
the way they issued this PR contract?
    Mr. Peck. We did not do anything wrong with this contract.
    Senator McCaskill. OK. Bad start.
    Let us start with the Statement of Work. Would it be 
typical in contracting to allow the contractor to write the 
Statement of Work, Ms. Johnson?
    Ms. Johnson. The normal course is that a contracting 
officer does not write the Statement of Work; it is written by 
the recipients that are the best knowledgeable people for 
receiving the services on the contract. So, the recipients are 
the authors of the statements of work.
    Senator McCaskill. So, you think it would be typical and 
good contracting practice to allow the contractor to write the 
work that was going to be performed, as opposed to the 
government laying out the work that they needed performed?
    Ms. Johnson. Typically. That is not what happened in this 
case, but yes, I would say that is----
    Senator McCaskill. But that is what happened in this case; 
is it not? Did not the contractor write the Statement of Work?
    Ms. Johnson. Let me just begin by saying I was not in 
office at this time. So, I want to be very careful because I am 
under oath to be sure that I am giving you the accurate 
statements, but I have been briefed on this and I believe I 
understand what happened.
    The Statement of Work was given to us by EPA at our 
request. We asked EPA to help us with this, because EPA is 
quite knowledgeable and experienced in communications work with 
the public around technical and scientific issues. They 
provided us with the Statement of Work. We did not understand 
until very recently that it was composed by JMA.
    Senator McCaskill. OK. Let me ask again; I am confused, 
now.
    Do you think it should have been composed by JMA or it 
should have been composed by the government?
    Ms. Johnson. It should have been composed by the 
government.
    Senator McCaskill. So, and in this sense, you are aware 
that it was not composed by the government?
    Ms. Johnson. We learned that it was not, very recently.
    Senator McCaskill. So, would that be something that was 
done wrong?
    Ms. Johnson. That would be--yes, that was incorrect 
procedure.
    Senator McCaskill. OK. So, let me read for the record:
    On February 4--and I should point out also, for the record, 
I believe that is the same date that Senator Bond requested an 
IG investigation; is that correct?
    Ms. Johnson. I do not know the date.
    Senator McCaskill. It was the day after. I believe it was 
the day after the IG investigation was requested by Senator 
Bond.
    Ms. Johnson. I will defer to----
    Senator McCaskill. OK.
    Ms. Johnson. I will defer to your----
    Senator McCaskill. OK. I believe if--let me do the 
chronology and then either you or Mr. Peck speak up if I am 
getting the chronology wrong.
    There had been a number of high-profile media reports 
beginning in November 2009 concerning the safety of Bannister, 
including a list that had been compiled of 95 people that had 
contracted cancer, including television reports that were 
very--I think I am being fair to say that they were 
inflammatory about the safety of Bannister. This began in the 
fall of 2009.
    And then, on February 3, there was a call for an Inspector 
General investigation of what had happened--what was ongoing at 
Bannister in terms of the safety at the complex.
    And it was the next day, I believe, that there was a 
decision made to try to hire a PR firm.
    Is that a correct chronology? Does anyone want to disagree 
with that chronology?
    Mr. Peck. No, ma'am. I am looking at my chronology and 
there was a report in the Kansas City Star on the 4th of 
February saying that the Senator had called for a new study on 
toxins.
    Senator McCaskill. OK.
    Mr. Peck. So, that may well be.
    Senator McCaskill. OK. So, and it was actually executed--
this task order was actually done in a day; correct? Was it not 
one day, 24 hours?
    Ms. Ruwwe. We issued the Statement of Work to Jane Mobley 
and Associates on February 4 and it was awarded on February 5.
    Senator McCaskill. Well, I do not think you issued it. Let 
me read an email:
    Early on February 4, 2010, Jane Mobley asked one of her 
employees to prepare a Statement of Work. Quote--in an email--
``Rich needs a Statement of Work for what needs to be done, 
although they don't really know. So, it needs to be general 
enough to fit everything in we could find under every rock we 
could turn over. He was hoping we had or would know where to 
find a boilerplate SOW''--Statement of Work--``so that they 
could write a contract right away.''
    ``Yeah, right.''
    Are you all aware of that email exchange between Rich Hood 
at the EPA and the contractor?
    Ms. Johnson. I am not.
    Senator McCaskill. So, you have not read any of the 
information concerning this, that is contained in the 
documentation we have in front of the Subcommittee.
    Ms. Johnson. No, I have read that but I----
    Senator McCaskill. You are not aware of that? OK.
    Ms. Johnson. I do not recall that one.
    Senator McCaskill. Later that morning, Mr. Hood informed 
Ms. Mobley that he was trying to locate a scope or Statement of 
Work generic off-the-shelf, but it was very slow going.
    In response, Ms. Mobley stated, ``Don't look too hard, we 
can send one.''
    Now, do either you, Ms. Johnson or Mr. Peck--do you think 
that is the way that we should enter into contracts for a 
quarter of a million dollars--or for a hundred grand for a 
month?
    Mr. Peck. That is not the way we want to enter into any 
contract.
    Senator McCaskill. So, would that be a mistake?
    Mr. Peck. Well, let me just clarify.
    Our guidance, our rules, are that we write--that the 
government writes scopes of work. Again, I was not on the 
ground, either, but I believe that our people believed that the 
scope of work had been written by the government. I do not 
believe that the people who it is--as far as I know, the people 
at GSA who issued the scope of work did not know the scope of 
work had been written by the contractor.
    Senator McCaskill. And why was the EPA asking a contractor 
to write a scope of work for the GSA? Why would that occur? 
That would not be appropriate contracting either, would it?
    Mr. Peck. Well, it is not inappropriate for us to ask a 
Federal agency with some expertise to help us draft a scope of 
work for a contract that is, in part--at least partly in their 
area of expertise. That is a government--that would be a 
government work product.
    And in fact, in this case, what we were doing was asking an 
agency, the EPA, which had--just as we have asked National 
Institute of Occupational Safety and Health to come in and help 
us because this is their area of expertise.
    Senator McCaskill. So, you----
    Mr. Peck. So, that is why I think--believe that we asked 
EPA for some help on this.
    Senator McCaskill. Mary, did you think Rich Hood wrote this 
scope of work? Rich Hood is the individual at EPA. Did you 
think he wrote this scope of work?
    Ms. Ruwwe. Yes, I did. In fact, I received the scope of 
work directly from Rich.
    Senator McCaskill. And did you ask him if he had written 
the scope of work.
    Ms. Ruwwe. No, I did not.
    Senator McCaskill. You just assumed he had written it?
    Ms. Ruwwe. Yes.
    Senator McCaskill. All right. I have taken up 5 minutes. I 
am going to turn it over to Senator Portman and I will come 
back for more questioning.
    Senator Portman. Thank you, Madam Chairman.
    And I think the point made earlier that this is a 
relatively small contract compared to the hundreds of billions 
of dollars every year that the Federal Government contracts for 
goods and services but that this does present some issues, and 
GSA should be the model contractor, of course, since you have 
such a fundamental responsibility in government contracting 
generally. And I think it is important that we understand what 
happened here and we are sure that the guidance that you are 
giving GSA and therefore the model you are providing for the 
rest of the government is clear.
    And I must say, I am a little concerned about some of the 
responses to the Chairman's questions, because it seems that 
maybe there is some confusion, but it sounds like, Mr. Peck, if 
I could go back to your response, that your rules would provide 
that--you said the government writes the scope of work, but 
where the GSA has a contract, they can consult with other 
agencies, but GSA ultimately is responsible for the scope of 
work, not the--as Administrator Johnson said--not the recipient 
or the contractor; is that correct?
    Mr. Peck. Yes, sir.
    Senator Portman. So, that is good to have clarified.
    My question that I had, having looked over the file, is, 
why did you not use your in-house expertise?
    And just this morning, listening to your testimony, Mr. 
Peck, you talked about the fact that you thought your in-house 
communications folks were not up to the task because there was 
such a burden on the public affairs in the Region. I think that 
was your quote, and I look at what GSA has and, by my count, I 
think you have 49 communication staffers, 20 of those, looking 
at the list, have over 20 years of experience. So, you have 
some very experienced public affairs folks. And I understand 
that most of those communications resources are based in 
Washington, not based in Ms. Ruwwe's region, but if the burden 
was on the regional public affairs officers (PAOs), would it 
not be natural for you to use your significant resources that 
you have in Washington and around the country to assist a 
region such as Ms. Ruwwe's?
    And I guess I would ask Ms. Johnson and Mr. Peck on that.
    Ms. Johnson. Certainly, let me begin.
    The demands on the Region in this case were unusual. It was 
not just a burden in terms of scale, in terms of the number of 
requests. This was a situation in which there was technical 
information, and I mean, 124 tests over 20 years is a lot of 
material to share with the public and to help them understand 
that the Bannister Federal Complex is a safe and healthy 
workplace.
    It is the technical competence that we were after that we 
do not keep in-house. We do not have these kinds of requests on 
us that often for this kind of media and public affairs 
information training--understanding explanation. We are--to do 
that would be rather extravagant, it would be fairly 
specialized, and in this case we needed that kind of expertise, 
not just your typical press releases, Web pages, internal 
communications, but we needed people who were able to help us 
distill complex, long-running information and help teach and 
train and communicate that to the public.
    If we were to turn to the central office, we would not have 
found it there, either. Long experience in this demonstrates 
that we did not need to have it on staff. It would have been 
extravagance to have this kind of permanent staff because we 
just do not have a need for it.
    So, this is when we go out and contract. This is what 
outsourcing is all about at times. It is going and finding--
finding the support and the resources that you need when you 
need them, rather than staffing up around it.
    Mr. Peck. And Senator, we did--you asked a good and fair 
question, which is did we look to some of our other 
communication specialists who are already on staff in the 
agency to see if we had the kind of expertise that the 
Administrator talked about, and we asked the question and we 
did not have on board at the time people who we thought could 
handle these particular communication issues.
    One other thing I will just note is that we recognized the 
need, these things do crop up, and one of the things the Region 
did in the course of administering the contract was to make 
sure that in-house staff were trained in how to handle these 
kinds of issues in the future in Kansas City.
    Senator Portman. OK. I guess I had not seen it in the 
record anywhere that you had asked the question.
    So, you say there was an inquiry made of particularly the 
Washington, D.C. staff as to whether they were capable of 
handling this?
    Mr. Peck. Yes, sir.
    Senator Portman. It was not just that it was a burden on 
the regional public affairs officials, and I assume you have a 
record of that, that you contacted the Washington, D.C. public 
affairs officials and asked them if they had the expertise.
    Mr. Peck. I have scanned my emails and I do not think I 
have found an email that says that, but I recall the 
conversations.
    Senator Portman. OK.
    And in terms of having the technical information from the 
outside, to the extent that was the issue, the technical 
competence you were looking for to be able to distill complex 
technical issues, was the contractor you chose someone who had 
that specialized environmental background? Was that why--did 
they have technical expertise?
    Mr. Peck. You would have to ask----
    Senator Portman. Is that the reason you went outside?
    Mr. Peck. Can I defer to Ms. Ruwwe?
    Ms. Ruwwe. Can you repeat the question? I was writing a 
note that I wanted to make sure I commented on.
    Senator Portman. No, it was just--again, I am trying to 
generalize here, and when is it appropriate to use outside 
contractors, and the response was it necessary because it is 
not just that you are public affairs folks who are overwhelmed, 
but rather it was that there was technical information based on 
years of environmental studies and reports that was not 
something that was within your expertise. So, you felt you had 
to go outside to get technical expertise. So, I assume the firm 
that you contracted with had environmental technical expertise.
    Ms. Ruwwe. Jane Mobley and Associates has expertise in 
conveying technical data--this sort of nature of technical data 
and conveying in layman's terms. That is their expertise, and 
we partnered with the Environmental Protection Agency--
actually, I consulted with, if I may expand upon the question 
that you were asking Commissioner Peck, I personally consulted 
with our central office.
    In fact, we had a senior leader that formerly worked for 
the Environmental Protection Agency, and she recommended that 
we seek assistance from the Environmental Protection Agency 
because of the fact that, one, we were already working with 
them to conduct some testing in the childcare center, and they 
have--their expertise in conveying environmental information in 
layman's terms.
    And so, I also consulted with our chief of communications 
at that time, Sahar Wali, and I do have evidence in an email 
where I consulted with her on the Statement of Work.
    Senator Portman. On the statement--Ms. Ruwwe, can I 
interrupt you just for a second because my time is coming to an 
end.
    I think Mr. Peck's comments earlier that it is appropriate 
to look in-house for other governmental expertise, as you all 
did with EPA, is part of the rules and guidance you talked 
about earlier.
    And Ms. Ruwwe has made that point in terms of why she 
looked to EPA, and my question would be--and then I will turn 
it back to the Chairman, EPA has a lot of public affairs 
specialists. I do not have the number in front of me, but it is 
more than your staff of 49--again, 20 of whom have 20 years of 
experience--so, it is not like you do not have experience. But 
to the extent you were looking for technical public affairs 
expertise, and to the extent that you were looking to the EPA, 
anyway, including being the go-between for a Statement of Work 
that ended up being written, I guess, by the contractor, would 
it not have made sense to go to the EPA? Should that not be 
part of your rules and guidance to the extent that you are 
looking to the EPA anyway in this case, particularly to see 
whether they had the public affairs expertise that you needed.
    Ms. Ruwwe. I can take that as well.
    When I called the local Region 7 Environmental Protection 
Agency Office, and we had been working with them already on the 
testing, and I talked with their media relations expert, and I 
asked him, can your office provide us help in communications 
assistance, and to which he replied, personally, that they 
could not provide the help in-house. They, too, were stretched 
at that moment in time, and he recommended that we seek 
contracting expertise.
    Senator Portman. And did you contact the higher levels at 
GSA regarding this to see whether the national office at EPA 
was going to be helpful?
    Ms. Ruwwe. I had consulted with our national office on it, 
and I made the personal decision to go ahead and contract for 
that expertise, based on the fact that we did not have the 
resources at central office, nor did EPA have the resources in-
house, and we did not have the resources regionally, as well.
    Senator Portman. All right. Again, I think I will go back 
to the Chairman. I am sorry for taking so much time.
    Senator McCaskill. That is OK. Take all the time you need.
    Senator Portman. But this relates to the general question 
that is being raised here: What should the rules be and the 
guidance be and, per Mr. Peck's earlier comments about using 
EPA and why that was appropriate, it seems to me it would also 
have been appropriate to look for that public affairs 
expertise. Certainly, it exists and probably, actually, in 
terms of technical information, would be the better place to go 
rather than a small business in Kansas City.
    Thank you, Madam Chairman.
    Senator McCaskill. The contractor that was hired had really 
never had a contract with EPA; is that not correct?
    Ms. Ruwwe. Looking back on the information I believe they 
had not had experience working directly with the Environmental 
Protection Agency.
    They had experience previously with the media relations 
person that I was working with, but they also had significant 
experience with other Federal agencies, a lot of work 
especially with the Department of Defense.
    Senator McCaskill. And that is probably a subject for 
another hearing, how many people do we have working in public 
affairs in the Federal Government, and when do they not 
adequately train or have people on staff ready to do this. Let 
me just follow up a little bit on the subject before I go to 
the next subject.
    Mr. Peck, you cited two examples in your opening statement 
of where your agency had done good work in terms of safety 
issues. I believe there was a metro station--refresh my memory 
of the two different examples. Silver Spring and----
    Mr. Peck. There is Silver Spring Metro Center and the other 
was the former Department of Transportation (DOT) headquarters 
in a leased building in Washington.
    Senator McCaskill. Were there PR contracts issued in either 
one of those instances?
    Mr. Peck. Not that I can tell. It did not--we did not 
find--long before my time--well, I take that back, they lopped 
over into my first tenure at GSA. In neither case did we find 
it necessary to get outside contracting help for those 
instances.
    Senator McCaskill. So, you had, in those instances, you had 
people in-house that could handle communicating to the public 
about potential workplace environmental issues?
    Mr. Peck. Yes, ma'am.
    There are two distinctions. We did find significant--some 
significant problems in the Department of Transportation 
building and moved a portion of the agency out of the building 
while we made the landlord conduct cleanup.
    And in the Silver Spring Metro Center, if memory serves me 
right, we had not yet occupied the part of the building that 
had some problems. So, I do not--but in both cases, we actually 
had a significant environmental issue which we could deal with. 
It was a different communication issue, then.
    Senator McCaskill. And I believe the number is--you have 
three GS14s and one GS15 with a combined 90 years of Federal 
service and average salary of $128,000 a year.
    You had eight individuals, including the individual 
responsible who were at a GS13 level or higher.
    That is a serious payroll for your agency in terms of 
public affairs specialists. So, do you think, looking back on 
it, that crisis management should have been part of the core 
competency of--I mean, those are--most of those are senior and 
executive. They, I think, enjoy not only six-figure salaries 
but most of them get bonuses approximating 10 percent year-in 
and year-out.
    Should not all of our staffs that are hired to handle the 
public affairs of our agencies, be ready to handle crisis 
management, even explaining technical issues in layman's terms?
    I mean, we have to explain technical issues in layman's 
terms all the time. I mean, welcome to--the intricacies of 
public policy translated in a way that is easily digestible to 
the public. It seems to me that is a core competency of public 
affairs specialists.
    Ms. Johnson. Senator, I have to say that, from my tenure in 
the 1990s to my current tenure, there is a great deal more 
media interest in what we are doing.
    And I would agree that, going forward, it would be 
significantly useful to have people with those kinds of 
competencies. I honestly do not believe in the past we have 
needed that and it would have been one of those additional--as 
I said before, it would have been extra staff. It would have 
been people trained in things that we would just not have been 
using.
    But I do believe, in this current environment, there is a 
lot more interest in what we are doing, delightfully so, and 
that we have a good story to tell and a complex story to tell, 
and I would say, going forward, this would be a core competency 
that would make sense to consider, and staff, too.
    Senator McCaskill. Let us look at the contract extension.
    The first contract was for $100,000--under $100,000--just 
under, correct?
    Mr. Peck. Yes, ma'am.
    Senator McCaskill. Is it a coincidence, Mr. Peck, that is 
just under the threshold of a number of other contract 
requirements that kick in at $100,000?
    Mr. Peck. Madam Chairman, I would not want to speculate on 
that. I did not write the contract and I do not know how the 
amount got decided upon.
    Senator McCaskill. But it is true that this contract came 
right in under what would have kicked in a lot of--more 
oversight of the contract; correct?
    Mr. Peck. Yes, ma'am.
    Senator McCaskill. And then, the extension stays in that 
sandbox instead of being a different, new contract where there 
would in fact be more oversight; correct?
    Mr. Peck. The extension was--I am sorry. Say that again.
    Senator McCaskill. Well, because it was an extension of an 
existing contract that came under the 100,000, it stayed within 
the parameters of the original contract instead of kicking in 
that $100,000 threshold that causes more oversight; correct?
    Mr. Peck. I am not sure.
    You are beyond my contracting expertise on that.
    Ms. Ruwwe. And I have slight knowledge.
    In this case, there was no reason to keep the contracting 
price under $100,000. If the price came in at above $100,000, 
there is nothing the contracting officer would have had to 
document--put more documentation in the acquisition plan, but 
there was no reason to keep it under 100,000, nor was there a 
reason to keep it at the $234,000 mark. The threshold actually 
kicks in at $550,000.
    Senator McCaskill. Let us talk about the extension.
    You modified the task order to extend it for 2 months at a 
cost of $134,000. Included in the work order on the extension 
was to introduce the new Regional Administrator to external 
audiences.
    I am curious where that came from, and did you do that with 
all the regional appointments? Did you hire contractors to 
introduce them to the leaders of the community? Did you hire--
--
    Ms. Johnson. No, we did not.
    Senator McCaskill. Well, why was that done here?
    Ms. Ruwwe. I can take that one.
    When Jason Klumb came on board, in his introduction--his 
initial introduction to the Region, he wanted to address the 
environmental situation at the Bannister Federal Complex, and 
we thought it was appropriate for Jane Mobley and Associates to 
help, again, convey that level of an enormous amount of complex 
information in a short amount of time. He did not want that to 
take away from his introduction speech, but--
    Senator McCaskill. So, you asked him. You asked him whether 
or not he thought this contract extension was a good idea, did 
you not, Ms. Ruwwe?
    Ms. Ruwwe. We had a dialogue. In the first week of March 
when we were getting ready to extend the contract, he 
questioned the cost of the contract and he wanted to know 
whether or not we could bring that in-house, and he sought my 
advice on that, and my recommendation was that, yes, while we 
had made significant headway in that first month, we were still 
significantly under-resourced in complexity and just the 
resource in order to handle the information that we needed to 
convey and the work that had to be done. And so, we did extend 
the two-month contract, and what I conveyed to Jason Klumb at 
that time is that our intent was to ultimately bring that back 
in-house, and the two-month extension, we anticipated that 
would be--result in a lower amount of cost over the timeframe.
    Senator McCaskill. In fact, on March 6, 2010, in an e-mail 
to you, Mr. Klumb stated, ``The cost is very high.'' He had not 
been in government very long at that point.
    ``At this point, I would recommend''--I am quoting now, 
directly--``At this point, I would recommend that the contract 
not be extended, and that we rely on the experience and 
expertise of GSA professionals. Please advise.''
    And on March 7, you responded, ``The work they've done 
equates to approximately $125 an hour, which is low, 
considering we have the owner of the company putting in a lot 
of time.'' I believe her hourly rate was $270 an hour; is that 
not correct, Ms. Ruwwe?
    Ms. Ruwwe. It was 270 or 250.
    Senator McCaskill. I believe it is 270, if you check.
    Ms. Ruwwe. OK.
    Senator McCaskill. ``The new contract will be month-to-
month, and should cost less unless we run into some unknowns.''
    On March 8, the GSA contracting official sent the very next 
day--and I am not aware there was any more give-and-take 
between the two of you on that in terms of emails. On March 8, 
the GSA contract officials sent the contract extension to Jane 
Mobley for signature. Ms. Mobley promptly forwarded the 
extension document to a JMA colleague and urged her to hurry to 
get the contract signed.
    Now, this is the important part of the email. At the time, 
Jason Klumb was serving in his Judge Advocate General (JAG) 
duties in the military and was in Korea; is that correct, Ms. 
Ruwwe?
    Ms. Ruwwe. Yes.
    Senator McCaskill. So, Ms. Mobley forwarded the extension 
document to a JMA colleague and urged her to hurry up and get 
the contract signed saying, ``Please get Jenny and execute ASAP 
before it's wake-up time in Korea.''
    Does that concern you?
    Ms. Ruwwe. That is the first I have heard of such an email 
like that.
    Senator McCaskill. And how would she know that there was an 
issue of Jason Klumb being in Korea? How would she have been 
aware of that?
    Ms. Ruwwe. I do not know.
    Senator McCaskill. Did you tell her that Jason Klumb had 
concerns about the extension of this contract?
    Ms. Ruwwe. I do not know. I do not recall.
    Senator McCaskill. Is there anyone else that knew that 
Jason Klumb was serving in Korea at the time and had indicated 
by email in a 12-hour time differential that he had concerns 
about extending the contract?
    Ms. Ruwwe. Not that I am aware of. I do not know.
    Senator McCaskill. So, we would need to ask Ms. Mobley 
where she got the information about, let us hurry up and get 
this done before they wake up in Korea?
    Ms. Ruwwe. Yes.
    Senator McCaskill. Senator Portman.
    Senator Portman. Thank you, Madam Chairman.
    I would like to go back to, again, this notion that rules 
and guidance matter, and particularly with this agency being a 
contracting leader.
    When I look at your testimony, Mr. Miller, and then I look 
at the responses to the Chairman's questions as to whether 
anything was done inappropriately, there seems to be a 
disconnect. And I go back to the issues that you raise in your 
testimony, Mr. Miller, as the IG, and I just want to be sure 
that I understand them.
    One was that you believe the sole source contract was not 
appropriate because there was not adequate justification.
    Mr. Miller. Correct.
    Senator Portman. Second, the scope of work was not 
adequately defined or priced. We talked about that.
    Third, that the initial task order did not have specific 
deliverables. I think you said in your oral presentation that 
there were not measurable objectives.
    And then, you had concerns about the extension not being 
justified.
    Going back to the scope of work for a second, does the fact 
that, as we have learned today, the Statement of Work was 
written by the contractor concern you, also, or was that not 
something that concerns you because this was noted earlier by 
the Administrator and it is not atypical?
    Mr. Miller. It does concern us very much, Senator.
    It creates a situation in which there are no controls and 
it is not an arms' length arrangement with the contractor. It 
allows the contractor essentially to say what the contractor 
wants to do and to essentially to name the contractor's own 
price.
    And the real problem was that GSA did not know what it 
wanted and what it needed.
    Ms. Johnson. Senator, allow me--I want to be sure that I 
heard you correctly.
    I did not intend, if it was heard, that it is a common or 
typical practice for a contractor to write the Statement of 
Work. That was----
    Senator McCaskill. I think that is what you said. It may 
not have been what you meant.
    Ms. Johnson. It is certainly not what I meant.
    Senator Portman. I think it might be helpful--you used the 
word ``recipient,'' I think, and that is how I wrote it down. 
It might be helpful to look at the transcript and I do not 
know, Madam Chairman, that might be too time-consuming to go 
back now, but you might want to correct your statement.
    Ms. Johnson. Let me just say it explicitly, the recipient 
being the government people receiving the benefits of the 
contract, the services of the contract, that would be the 
recipient, not the contractor.
    Senator Portman. OK. That is----
    Ms. Johnson. So, the recipient should--it is the person--
the manager who needs the services to--writing the Statement of 
Work would be the normal course of events.
    Senator Portman. I am glad you had a chance to correct 
that----
    Ms. Johnson. I am sorry.
    Senator Portman [continuing]. Or at least correct my 
misunderstanding of what you said.
    Ms. Johnson. My misspeaking, perhaps.
    Senator Portman. But we will look back at the transcript of 
that and be sure that is clarified.
    So, both of you had concerns about that, and yet you 
responded to the Chairman's question earlier that you did not 
think anything was wrong in the way this was handled, and we 
have now been able to identify, I think, the contract extension 
I will leave out, because I am not sure we agree with that and 
for that matter, I guess, the justification for sole source, 
you might not agree with the IG on that, but do you agree that 
the Statement of Work should not have been written by the 
contractor? And again, this is not about this particular 
contract, this is about what are the rules and guidance going 
forward. You do agree with that?
    Ms. Johnson. I agree that it should not be written by the 
contractor, and we did not believe that was the case in this 
situation. We would not have acted in the way we had, I submit, 
if we had known that it had been written by the contractor.
    Senator Portman. On the scope of work not being adequately 
defined or priced, I assume that you would agree with that in 
the sense that you all did not establish a scope of work at 
all; right?
    Ms. Johnson. Well, the prices--let me address the price 
piece. Because JMA is on the multiple award schedules, the 
prices are----
    Senator Portman. Excuse me for a second. What did you mean 
by ``price.'' Did you mean the multiple awards schedule or did 
you mean the overall price of the contract? I assume that you 
meant----
    Mr. Miller. Well, both, Senator. The problem is, if you do 
not know what you want, it is hard to get the right price.
    If you are buying a vehicle, for example, and you do not 
know if you want a Volkswagen, or a truck, or a bus, it is hard 
to evaluate the prices.
    GSA did not know what it wanted from this contract. It was 
clear from the email that Senator McCaskill read earlier. They 
were willing to settle for boilerplate.
    GSA needed to think through what it really wanted from this 
contract, and then it can assess price.
    Senator Portman. So, this is, again, a general rule of 
contracting, is to be sure that you think through what it is 
you are asking for, to be sure that the government and the 
taxpayers are getting the best, most efficient and effective 
outside work done to the extent outside work is appropriate. We 
have talked about that already whether it was appropriate or 
not.
    And then, the other one is that the task order had no 
specific deliverables; that is in your testimony. Again, you 
talked about measurable objectives, I think, in your testimony.
    I would guess I would again throw that out to the 
Administrator and to the Commissioner. Do you think that there 
were adequate, measureable objectives or, as the IG has said, 
specific deliverables in this request for an outside 
contractor?
    Mr. Peck. I would always prefer that there be very specific 
deliverables in a contract, as specific as we can make them.
    Without getting in the weeds, can I make a distinction? 
When we write a contract to a contractor to build a building, 
we know pretty much down to the last electrical outlet what we 
are asking them to deliver. We have a schedule and we have a 
budget. It is the case that when you hire consulting services 
of all kinds, you cannot get to that level of specificity 
because, in some cases, you are saying, I do not have this 
expertise. I may not know enough to write a deliverable down to 
the last jot.
    On the other hand, we certainly want something where, at 
the end of the day, we can say, did we get our value for the 
price? So, there is a little bit of a judgment call on how 
specific the deliverables should be.
    I think in the----
    Senator Portman. I appreciate that, Commissioner, and I 
think there is a spectrum, here.
    One end of the spectrum would be not having any measurable 
objectives at all, and that appears to be where we are here.
    Mr. Peck. Correct. I do not think we had no deliverables. 
In hindsight, I wish that deliverables probably could have been 
more specific.
    Senator Portman. Mr. Miller, I am going to give you a 
chance to talk about the contract extension, because there may 
be a difference of opinion there, but what is your specific 
concern on the contract extension?
    Mr. Miller. Again, Senator, GSA did not clearly know what 
it wanted in the first place. It was not sure that what it was 
getting was what was needed; it had EPA look at that.
    And the problem of extending the contract was, why extend 
it? The work seemed to be developed by the contractor and there 
was no need to extend this current situation.
    Going back to why GSA mentioned that it needed the 
contractor, it mentioned technical expertise. When we looked at 
the product of JMA Associates, it looked as if--that EPA 
translated the technical data and JMA compiled. JMA also 
compiled information that is readily available on the Internet, 
and it also put out some inaccurate information in terms of 
work product. But as far as scientific and technical 
information goes, my office just did not see that JMA was 
adding value in translating technical and scientific 
information.
    So, if you have that situation, why extend the contract? 
You still do not know why you have them and what you need them 
for. So, why extend it?
    Senator Portman. OK. I need to end my question because my 
time has come to the end.
    But again, I think we have learned some things here that 
hopefully can be helpful going forward. I do not think this, 
again, is about this specific contractor who, after all, was 
sought after by GSA on a sole source basis, but it is about how 
GSA, as a major contractor and as a Federal agency that has a 
key role in helping other Federal agencies to contract conducts 
itself.
    So, I think that after this hearing I would hope that the 
answer to the Chairman's question would be, yes, we made some 
errors and we can do better, and we will be sure that what we 
learned from this situation is reflected in future guidance.
    Thank you, Madam Chairman.
    Senator McCaskill. Thank you, Senator Portman.
    Mr. Miller, in the original IG report you did--and I want 
to say that--I do want to underline what Ms. Ruwwe was so 
intent upon saying, because I think it is important to the 
people that work at Bannister, that there now have been dozens, 
and dozens, and dozens of tests that have been performed, none 
of which have indicated a health hazard to the employees and 
families that work at Bannister and their children cared for at 
Bannister.
    But the issue here is not whether or not it is safe today, 
but how GSA handled the challenges of dealing with the 
questions about the safety at Bannister, and whether or not 
they were timely and aggressive in terms of some of the testing 
that was performed, and most importantly, whether they looked 
within government for resources to communicate to the public 
instead of what appears to be in almost a knee-jerk fashion to 
citing it is time to get a big PR firm--well, a PR firm, they 
were not a big firm--but an expensive--I mean, for 3 months' 
work, they made double the salary of any public relations 
person at GSA, for 3 months' work.
    In fact, originally, Mobley said, let us do a 5-year 
ceiling with $5 million. As it turns out, this contract for 3 
months, if you extrapolated out over the life of a year would 
have been a million-dollar contract.
    This is exactly the kind of thing that allows the public to 
get deep-rooted cynicism about the way we spend money. This is 
exactly it, that we must have--this must be Monopoly money, if 
we are paying someone for 3 months' work, double the salary of 
anyone that works in public affairs within GSA. That is an 
extraordinary amount of money to pay someone for 3 months' 
work.
    And I know they say 1,800 hours. Mr. Miller, could you 
comment about the work product--I mean, 1,800 hours in 3 months 
and this is the deliverables. This is a quarter of a million 
dollars, approximately, a little less.
    And a lot of the things they did, when I looked at the 
list--which, by the way, they prepared. Mobley prepared the 
list of deliverables that we have been referring to in terms of 
this investigation, and most of them were meetings with 
government officials, internal meetings. And now, I know they 
prepared some materials that were given to the public and some 
written materials.
    Let me back up about your audit that said--I mean, your 
investigation, Mr. Miller, that said that the GSA officials 
provided incorrect and misleading information. Would you 
specifically and briefly say what it was that you thought was 
incorrect that they provided you in the Inspector General 
investigation that was done concerning the testing and the 
environmental testing that was done at Bannister, and what was 
the misleading information?
    Mr. Miller. Yes, Senator.
    The most notable misleading and inaccurate information was 
about documents being produced. There was a 2005 letter from 
the Missouri Department of Natural Resources (MDNR) from 
January 2005 that raised concerns about the conditions at 
Bannister.
    There was a June email following up on that, it was not 
responded to by GSA.
    There was a June email by MDNR following up on that.
    And there were letters in October 2005. When we went to GSA 
initially, these were not produced. They were also not produced 
under the Freedom of Information Act (FOIA) request. So, that 
information was not produced. We went back after obtaining that 
information from the MDNR--we went back and asked GSA.
    Senator McCaskill. So, your source for the document that 
you found was in fact the Missouri Department of Natural 
Resources as opposed to GSA.
    Mr. Miller. Yes.
    Senator McCaskill. And then, you went back and said, why 
did you not give us this information.
    Mr. Miller. Yes.
    Senator McCaskill. And you were told?
    Mr. Miller. I was told that they did not have that 
information, that they were not aware of it.
    We talked to the individuals involved in the 
correspondences, the environmental hygienists, and we asked if 
they drafted it--if they saw it and if they drafted a response 
or an email responding, and they could not remember.
    Senator McCaskill. Mr. Peck, would you like to--I know you 
have a difference of opinion about the way the Inspector 
General characterized ``misleading and incorrect,'' and would 
you--I want to give you an opportunity, in fairness----
    Mr. Peck. Yes.
    Senator McCaskill [continuing]. To respond for the record 
your characterization of the fact that an important source 
document for an investigation like this they had to receive 
from a secondary source as opposed to the agency that they had 
the responsibility to provide watchdog services.
    Mr. Peck. Well, thank you for the opportunity.
    First of all, needless to say, when we get a Freedom of 
Information Act request, I mean, our obligation is to produce 
everything that we can. I think in this case, we produced some 
30 volumes of documents, including, I think--I do not know if 
the Inspector General would agree--including documents that if 
you were looking to make--if you were out to make yourself look 
good, you probably would not produce if you were trying to hide 
things.
    And so, I guess my concern--and I do not think it is a 
quibble, because we are talking about the integrity of Federal 
employees--is that I believe, as near as I can tell, that the 
failure to produce that letter was not deliberate, that nobody 
was trying to hide the fact that MDNR had written a letter. And 
that is my concern because, as we said, we have been--as near 
as I can tell, in the times I was not at GSA and in the times 
that I have been, we have tried to be as open and forthright as 
to what is going on at the Bannister Complex as we can, and to 
respond to requests.
    Senator McCaskill. I would assume, though, that you would 
acknowledge that a letter from the Missouri Department of 
Natural Resources criticizing the agency's limited 
investigation of trichloroethylene (TCE) contamination would 
have been a serious issue, and that document should have been 
placed in a place--I would assume that you would have a filing 
system that would certainly prioritize another--this would be 
similar to the EPA coming to Bannister and saying, we do not 
think you have done enough on TCE site contamination.
    I am just curious, it is either--if it is inadvertent, it 
is incompetence; if it is not inadvertent, it is even more 
troubling.
    Would you acknowledge that this is a huge problem?
    Mr. Peck. It certainly is a problem. It is in the context 
of 40,000 documents that were--something like that--that were 
produced.
    I do not to this day know why it was not--what happened to 
it and why it was not responded to at the time. But again, my 
concern, because we are talking about the confidence of the 
public in what we do, is that we can sure make mistakes, but we 
are not covering up and we are not intending to mislead people.
    Ms. Ruwwe. And may I expand on that.
    Senator McCaskill. You need to turn your microphone on, Ms. 
Ruwwe.
    Ms. Ruwwe. Sorry.
    If I can expand on that, that has been one of our lessons 
learned, and one of the IG's recommendations, that we actually 
have a robust documentation filing system. And so, now, it is 
all electronic, it is easily accessible, and so, that mistake 
will not occur again.
    Mr. Miller. Senator, if I could simply add quickly that we 
found it in the GSA database, after we were told it did not 
exist in the database. We used simple search terms, and our 
auditors put the search terms in the database and found it when 
the GSA officials could not.
    Senator McCaskill. That is hard to--they find it by going 
in your database with simple search terms, but you all are 
still maintaining you could not find it.
    Do you agree that is troubling?
    Mr. Peck. I would like to know what--who used what search 
terms to find it and how we did a search that did not find it. 
I would certainly want to know that.
    Senator McCaskill. Well, I think that would be something 
that I am sure that Mr. Miller would be glad to follow up with 
you about the technical nature of their database search within 
your database to find the document.
    And it would be interesting to see what kind of search was 
done by GSA to find the document after it was brought to your 
attention that it had not been produced.
    Ms. Ruwwe. And if I can expand on that, as well, in 
developing our electronic documentation system, we have found 
more documents and we have provided that, I believe, to the IG 
afterwards.
    We acknowledge that we had a poor documentation system. Our 
staff of people----
    Senator McCaskill. But they found it in your documentation 
system. They found it by a simple database search. Why could 
you not have found it by a simple database search?
    Ms. Ruwwe. I cannot answer that question directly, but I 
can say that, if you have a document and you have it in your 
hand, it is probably easier to research then just doing a 
blanket search.
    Senator McCaskill. But they asked you about the presence of 
the letter and you said you still did not have it.
    Correct me if I am wrong, Mr. Miller: They get a letter 
from the Department of Natural Resources (DNR) they had not 
gotten from you about TCE testing. They say to you, why did you 
not produce this letter. You say, we do not have it. Then, and 
it is--we do not know what you are talking about. We do not 
have that letter. They then go in your database, OK, and with 
simple search terms, find the letter.
    Now, you understand that this is problematic.
    Ms. Ruwwe. That is the case and that is what happened.
    The staff, when asked, why did you not have that letter, 
they simply did not recall.
    Senator McCaskill. Did they do a database search for the 
letter when they were asked by the Inspector General for the 
letter?
    Ms. Ruwwe. I am not sure what kind of a search that they 
did to find that letter.
    Senator McCaskill. I would think that would be something 
you would want to know.
    Ms. Ruwwe. They did find--
    Senator McCaskill. Because are these people not working for 
you?
    Ms. Ruwwe. Yes, they did----
    Senator McCaskill. And you are telling me that you are in 
the middle of an Inspector General investigation and a letter 
turns up that you have not presented to the Inspector General, 
they find this letter, they come to you and say, why is this 
letter not--and the other emails--part of what you produced? 
And you go to your people and say, why did we not produce this 
letter, and they say, we do not have it, we cannot find it. You 
then find out they find it using your database and simple 
search terms.
    Did you go back to the personnel accountable for this and 
did you ask them why you could not find this? Did you do a 
database search? Who is the person that is responsible, Ms. 
Ruwwe?
    Ms. Ruwwe. I have had personal dialogue with our safety and 
environmental program team, and in that dialogue, I wanted to 
find out the details of the letter which I have seen, and in 
the details of the letter--and actually, I have talked with the 
Missouri Department of Natural Resources about it, too, and the 
circumstances around that.
    That letter was written from one technician, from the 
Missouri Department of Natural Resources----
    Senator McCaskill. No. You are not--I understand you did 
not find the letter initially.
    This is my question--this comes to accountability. This 
comes to Federal employees that have responsibilities and 
expertise, and they are paid accordingly. OK.
    Now, you now know there is a letter that you did not 
produce. This makes you look bad; right? So, you want to find 
out where this letter was and why you did not produce it.
    So, you go to the people that work for you and you say to 
them, why did we not produce the letter; correct?
    Ms. Ruwwe. Yes.
    Senator McCaskill. And they said to you, we do not have the 
letter; correct?
    Ms. Ruwwe. They could not find it immediately. They 
ultimately did.
    Senator McCaskill. Wait. Did they say you do not have it or 
they could not find it.
    Ms. Ruwwe. They could not find it immediately. They 
ultimately did.
    Senator McCaskill. OK. So, now, what we know is that the 
Inspector General, once you told them they could not find it, 
the Inspector General does not go to MDNR, he goes in your 
database and does a simple search and finds the letter.
    Now, at this point in time, did you take disciplinary 
action against the people responsible for finding the letter in 
your agency which made you now--not only did you not give them 
the letter, you have now said you cannot find it and they find 
it with a simple data search.
    Ms. Ruwwe. What we have done is improved our documentation 
and filing system, and so, that will not happen again.
    Senator McCaskill. Do you need the Inspector General to 
train your people on how to do a database search in your 
database? That is what it sounds like.
    Mr. Miller. Senator, if I could add, we used the same 
search terms that the GSA person told us they used and could 
not find the document.
    Ms. Ruwwe. Our legal staff--once provided the 
documentation, our legal staff went through that documentation 
and conducted the redaction process. And so, our people--there 
was nothing to hide, and as Commissioner Peck said, there were 
a lot of documents in there that, if we wanted to, we could 
have taken out.
    Senator McCaskill. No, I understand. I am more going to 
incompetence and accountability here, that clearly mistakes 
were made and clearly it does not appear to me that people who 
have made the mistakes are responsible for the mistakes, that 
there was any accountability.
    This is obviously embarrassing that you cannot find a 
letter and then, using the same search terms that you 
supposedly used, they find it immediately, and it is a pretty 
important letter.
    So, I guess that is the point I am trying to make, Ms. 
Ruwwe. I mean, I am not going to sit here--believe me, I know 
there are thousands and thousands of Federal employees that 
have incredible integrity and I am not here casting aspersions 
on your integrity. What I am saying is this was ugly. It was 
sloppy, ugly, messy, and bad.
    And the most frustrating thing about this hearing is that I 
have not heard enough acknowledgement from anybody from GSA 
that mistakes were made and that it should not have been done 
this way.
    Let me just go through the facts which I think will 
highlight another point, and then I will turn it back over to 
Senator Portman.
    The letter itself, despite the issue in the letter that was 
raised in TCE, the Public Building Services took no substantive 
investigation action for 18 months concerning that letter. When 
it finally initiated a site inspection after 18 months, that 
site inspection was not completed until 3\1/2\ years after the 
Missouri Department of Natural Resources letter was sent about 
TCE contamination.
    The Public Building Services did not respond to Missouri 
Department of Natural Resources regarding its concerns and 
terminated their environmental oversight on October 24, 2005.
    One of Department of Natural Resources concerns related to 
the childcare facility was not addressed until a vapor 
intrusion system was installed 5 years after the Missouri 
Department of Natural Resources letter.
    But yet, when a Senator calls for an Inspector General 
investigation, we are able to get a PR contract in 24 hours.
    Ms. Ruwwe. Can I respond to that?
    Senator McCaskill. Yes, you may.
    Ms. Ruwwe. OK. From what I believe--and I want to consult 
with my--one of my project managers back behind me--from what I 
believe, the testing that we were doing in the childcare center 
and other parts of the complex was air sampling testing. And 
the testing that the Missouri Department of Natural Resources 
and the Environmental Protection Agency were recommending, it 
was somewhat--it was newer--a newer form of testing, and it was 
sub-slab testing.
    So, they were testing vapor intrusion from below the slab, 
and that was something that we had not conducted in the past. 
But we did do our due diligence, in our perception and our 
understanding, with the air sampling, but it was further 
recommended by the Missouri Department of Natural Resources to 
conduct this sub-slab testing.
    Senator McCaskill. I guess the point I am making is this is 
a letter you could not find and it recommended an action on a 
certain form of contamination and it took years to follow up on 
that letter, but the PR contract went quickly, and I think that 
is the point we are trying to make. Maybe if there had been 
better work done along the way maybe we would not have been to 
the point that you all considered bad press, a crisis.
    Ms. Ruwwe. And can I respond to that?
    Senator McCaskill. Yes.
    Ms. Ruwwe. We acknowledge--and I want you to hear loud and 
clear--we acknowledge that there is a lot of room for 
improvement.
    We value and have a very good working relationship with the 
Inspector General, and we value their feedback and 
recommendations. We have taken this as an opportunity to do a 
lot of improvement and thoroughly believe in continuous 
improvement and we are taking those lessons learned and we know 
we can do better, and we have already done a multitude of 
things that have been somewhat discussed here today, but from 
the additional testing, we value the recommendations of the 
Environmental Protection Agency. We are doing our due diligence 
in following up in those other areas that they would recommend 
that we follow up in.
    We have done the fix on our electronic filing system; we do 
not want that mistake to happen again. We want open, honest 
transparency in our communications, and the number one priority 
is the health and safety of our tenants and our associates, the 
parents dropping their kids off at the childcare center. We 
want them to feel safe, an assurance to have that.
    And so, throughout this process, over the last year, 2010 
has been--it has been a rough year, and the biggest challenge 
has been in the communications piece and earning the trust back 
of the public.
    Senator McCaskill. And the press continues.
    Ms. Ruwwe. Yes.
    Senator McCaskill. There have been major stories that have 
been negative about the complex long after Jane Mobley got her 
last dollar; correct?
    Ms. Ruwwe. Yes.
    Senator McCaskill. OK. Senator Portman.
    Senator Portman. Thank you, Madam Chairman.
    And just to review where we are, I hope, it sounds like we 
have a different response from the panel, and specifically from 
the GSA members of the panel on what went wrong in this 
process. And again, I hope we can learn from it. I think with 
$530 billion a year--more this year; that was last year's 
number--going out in contracts, this is an area where GSA 
should take a leadership role.
    I think this notion of in-house expertise is something 
Commissioner Peck and Ms. Johnson will take a look at, 
including, by the way, not just regional expertise but 
Washington expertise--in this case, public affairs expertise--
the use of other Federal Government expertise being something 
that I think is appropriate, and I know that is an issue where 
there may be some difference of opinion, but in this case the 
expertise at EPA to deal with some of the technical and more 
complex issues that were raised would be appropriate before 
going outside, perhaps, to a firm that does not have that 
expertise.
    The issue of sole source contracting, which is always an 
issue and justifications for it is something where you all 
ought to, again, not just have clear rules internally but be 
able to provide that guidance for other agencies and 
departments.
    And scope of work, I think Mr. Miller stated it pretty well 
earlier: You do not know what you are going to get if you do 
not take the time and sometimes, as Mr. Peck says, it is 
difficult with technical information to know what you want. 
Well, then, again, going to the expertise either in-house or in 
another governmental agency, there was a Statement of Work 
being written by government rather than written by the 
contractor, him or herself, a notion of measurable objectives. 
I mean, this is something that government struggles with and 
does not do well enough, and without the private sector 
incentives and motivations, sometimes it is hard, but you 
therefore have to redouble your efforts to have measurable 
objectives in specific deliverables, and then, of course, when 
it is appropriate to extend a contract or not, and I think in 
this case, for all the reasons that we have stated earlier, an 
extension should be dealt with like an initiation of a 
contract.
    So, I do not have any other questions, Madam Chairman, 
except to say that this has been, I hope, an illuminating 
hearing to raise some of these issues and to help ensure that 
GSA as the leader in the contracting community and learns from 
this experience, as well.
    Thank you, Madam Chairman.
    Senator McCaskill. Thank you, Senator Portman.
    I would ask, if any of you have anything you would like to 
add to the record, the record will remain open.
    If you want to add anything--if you want to say anything 
else right now, you are certainly welcome to.
    Mr. Peck. We do, at least I do.
    Madam Chairman, Senator, I appreciate all your comments. I 
appreciate also your concern. We do believe--and I am going 
to--the Administrator is in charge of--has a passion about 
making GSA a model for contracting and for the way the 
government can behave in a businesslike manner, and I am going 
to allow her to talk about that.
    I want to say on behalf of the Public Building Service, I 
want to be very clear about my answer to your first question, 
did we do anything wrong? In a sense of legal culpability, no. 
Did we make mistakes? Certainly, in hindsight, we made 
mistakes, and I want to assure you of a couple of things.
    One is that we are very aggressive. We run a lot of 
projects every year on behalf of the American people, most of 
them, the vast majority of them, come out great, but as I have 
seen in the private sector as well as the public sector, you 
learn something that you say, boy, I am not going to do that 
again, I learned a lesson. We are very aggressive in learning 
our lessons. We are very aggressive in training out contracting 
officers about issues like sole source, and we work hard to 
make sure that we abide by the government's rules.
    There is an irony, as you well know that, if you are in the 
private sector working with the government, sometimes you say, 
well, there is a surfeit of rules that make it difficult for 
the government to work efficiently. So, we work very hard to 
make sure we obey all the rules and that we can get the 
people's business done efficiently and productively. And I can 
assure you that this is an episode from which we have learned a 
couple of lessons, and I think you have noted them.
    We understand that we need in-house expertise of a certain 
type in buildings that have environmental issues, and it has to 
do both with being able to understand the issues, explain them 
to people, and make sure that people are confident in what we 
are doing.
    So, I do not want you to believe that we just walk away 
saying, well, that was just a one-off. We do not want to have 
the issue that we have with public confidence in a place like 
the Bannister Complex. We want to be able to keep it safe and 
convince people that it is, in fact, safe for them to work in.
    Ms. Johnson. Allow me just to say a few things.
    First of all, I appreciate this hearing because, as you 
say, contracting is not necessarily sexy to the American 
public, but it is critical and important, and we are one of the 
biggest agents in the government for that expertise and to help 
the rest of the government function with great stewardship 
towards the taxpayer dollar.
    I want to also commend you for raising the issue of 
services contracts. I think that is an arena where I would like 
to continue to work very closely with our customer agencies and 
with you to be sure that we are supporting the government well.
    Services contracts are growing because of the last decade 
of outsourcing, and it is an important arena and a huge one.
    I also completely agree with the notion that we need to be 
more sophisticated about how to communicate technical 
information. In a 24/7 news cycle, there is a lot of 
information that is going out, but it is one that needs to be 
understood and clearly taught. So, we have, I think, a 
challenge, as does the private sector on that.
    I am delighted to be at GSA. I think we have a lot of 
potential for fixing some of these problems. I also commend to 
you the issue of contractors and their training and their 
support. It is a profession within the government that deserves 
our resourcing and our----
    Mr. Peck. You mean contracting officers.
    Ms. Johnson. Contracting officers. What did I say? 
Contracting officers, I think they need our support and they 
need our investment, and that is the vehicle by which we can 
then stand tall that our contracting is done with integrity and 
with the--safeguarding the American taxpayer dollar. Thank you.
    Senator McCaskill. This Subcommittee has spent a lot of 
time on contracting--on contracting officer representatives 
(CORs), and this was another weird thing about this contract, 
was that the contracting representative was somebody at the EPA 
as opposed to somebody at GSA for the first month of the 
contract, and then, I think you guys figured out that was not 
the right way to do it, and you changed it.
    I know, Mr. Miller, you continue to audit, and we will look 
forward to your work. And I try to every hearing to send 
support and acknowledgement and respect for the work that the 
Inspector General community does. It is not easy. I do not care 
what they say, they are not glad to see you.
    And the bottom line here is we had a one-day, non-
competitive, sole-sourced contract, with the work written by 
the contractor, with misinformation that was surrounding the 
contract, the assumption that EPA was writing the Statement of 
Work, the assumption that EPA had done business with this firm 
before.
    And then, it was renewed, even though the regional 
administrator had said, I think it is too expensive. It was 
rushed through anyway, the extension. That is a subject for 
another day, what has happened to the role of the regional 
administrator within GSA; clearly, it has been changed, and I 
think it was changed when nobody was watching. And I am not 
saying that it should not be changed, but the question is, if 
the regional administrators are not going to have any power, 
why do we have them? I am not sure that we need to have them if 
they are--clearly, his saying that he did not want to do the 
contract did not slow you down. You knew that you had authority 
over him; he did not have authority over you.
    And I understand that maybe there is a management reason to 
make that change, and I am open to hearing about it, but I do 
not think the members of the Senate understand what happened 
and when it happened, because it was clearly changed in the 
interim time when George Bush left office and the time that 
you, Ms. Johnson, took office, there was effort made in GSA to 
change what had been traditionally the role, and that is a 
subject for another day and does not impact what we are dealing 
with today.
    And finally, I would just say, accountability. If we now 
acknowledge at the end of the hearing that mistakes were made, 
then I have yet to see where anyone was held accountable for 
those mistakes. I know Ms. Ruwwe received a bonus last year, in 
one of the toughest economic years our country has ever seen.
    And I am not saying it was all her fault, the mistakes that 
were made, but it is interesting to me that I am not aware of 
anyone who suffered any kind of accountability because of the 
mistakes that were made surrounding this contract, and that is 
troubling to me. I do not think that would happen in the 
private sector, and I think it is important that we demonstrate 
to the public that when mistakes are made that someone is held 
accountable and I am not convinced that is the case in this 
particular contract.
    We will keep the record open for 7 days. If there is 
anything you want to add based on any comments that have been 
made today, as you look at the record, if there is anything you 
want to correct. Certainly, we do not want the record to stand 
that we heard you say something different than what you meant, 
so feel free, and we will continue to monitor--especially sole 
source service contracts in the Federal Government. As the old 
saying goes, there is money to be saved there, and serious 
money to be saved there, hundreds and hundreds of millions of 
dollars. I would never want a PR contract issued the way this 
one was issued in the Federal Government again. We have plenty 
of folks that--and the way I look at technical information, Ms. 
Johnson, is, first of all, I need to understand it and, once I 
understand it, I ought to be able to explain it. And if you 
have people working for you in public affairs that, once a 
complex subject matter is explained to them and they cannot 
explain it, then you need to find new people, because it is the 
translation of complicated information into simple terms that 
is the essence of making sure the public understands complex 
subject matter. And I do not think it takes a PR firm to do 
that. I think it just takes somebody being able to explain it 
to you and then you being able to characterize that explanation 
in a simple and straightforward way.
    I do not think that is the kind of technical expertise that 
is not found in the Federal Government. If it is not in the 
Federal Government, then we are in big trouble; we are in big 
trouble.
    So, I appreciate you, Senator Portman, and if you do not 
have any other comments, we will close the hearing, and I thank 
you all for your attendance today.
    Thank you.
    [Whereupon, at 11:51 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6624.001

[GRAPHIC] [TIFF OMITTED] T6624.002

[GRAPHIC] [TIFF OMITTED] T6624.003

[GRAPHIC] [TIFF OMITTED] T6624.004

[GRAPHIC] [TIFF OMITTED] T6624.005

[GRAPHIC] [TIFF OMITTED] T6624.006

[GRAPHIC] [TIFF OMITTED] T6624.007

[GRAPHIC] [TIFF OMITTED] T6624.008

[GRAPHIC] [TIFF OMITTED] T6624.009

[GRAPHIC] [TIFF OMITTED] T6624.010

[GRAPHIC] [TIFF OMITTED] T6624.011

[GRAPHIC] [TIFF OMITTED] T6624.012

[GRAPHIC] [TIFF OMITTED] T6624.013

[GRAPHIC] [TIFF OMITTED] T6624.014

[GRAPHIC] [TIFF OMITTED] T6624.015

[GRAPHIC] [TIFF OMITTED] T6624.016

[GRAPHIC] [TIFF OMITTED] T6624.017

[GRAPHIC] [TIFF OMITTED] T6624.018

[GRAPHIC] [TIFF OMITTED] T6624.019

[GRAPHIC] [TIFF OMITTED] T6624.020

[GRAPHIC] [TIFF OMITTED] T6624.021

[GRAPHIC] [TIFF OMITTED] T6624.022

[GRAPHIC] [TIFF OMITTED] T6624.023

[GRAPHIC] [TIFF OMITTED] T6624.024

[GRAPHIC] [TIFF OMITTED] T6624.025

[GRAPHIC] [TIFF OMITTED] T6624.026

[GRAPHIC] [TIFF OMITTED] T6624.027

[GRAPHIC] [TIFF OMITTED] T6624.028

[GRAPHIC] [TIFF OMITTED] T6624.029

[GRAPHIC] [TIFF OMITTED] T6624.030

[GRAPHIC] [TIFF OMITTED] T6624.031

[GRAPHIC] [TIFF OMITTED] T6624.032

[GRAPHIC] [TIFF OMITTED] T6624.033

[GRAPHIC] [TIFF OMITTED] T6624.034

[GRAPHIC] [TIFF OMITTED] T6624.035

[GRAPHIC] [TIFF OMITTED] T6624.036

[GRAPHIC] [TIFF OMITTED] T6624.037

[GRAPHIC] [TIFF OMITTED] T6624.038

[GRAPHIC] [TIFF OMITTED] T6624.039

[GRAPHIC] [TIFF OMITTED] T6624.040

[GRAPHIC] [TIFF OMITTED] T6624.041

[GRAPHIC] [TIFF OMITTED] T6624.042

[GRAPHIC] [TIFF OMITTED] T6624.043

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
